No. 20-905

In The
INDEPENDENT SCHOOL DISTRICT NO. 284,
PETITIONER,
V.
E.M.D.H. EX REL. L.H. AND S.D.,
RESPONDENT.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
CERTIFICATE OF SERVICE
I, Hyland Hunt, Counsel of Record for the Minnesota Association of School
Administrators, do hereby certify that on this 3rd day of February, 2021, I caused
copies of the Brief of Minnesota Association of School Administrators as Amicus
Curiae in Support of Petitioner to be served by electronic mail, with the parties’
consent to electronic service, as encouraged by the Court’s order of April 15, 2020. I
also certify that all parties required to be served, as listed below, were served:
Neal Kumar Katyal, Hogan Lovells US LLP
Counsel of Record for Petitioner
neal.katyal@hoganlovells.com
Roman Martinez, Latham & Watkins, LLP
Counsel of Record for Respondent
roman.martinez@lw.com
Amy Jane Goetz, School Law Center, LLC
Counsel for Respondent
agoetz@schoollawcenter.com

Hyland Hunt
hhunt@deutschhunt.com
Deutsch Hunt PLLC
300 New Jersey Ave. NW, Suite 900
Washington, DC 20001
(202) 868-6915

